NO.__________
IN THE
SUPREME COURT OF THE UNITED STATES
TYQUEZ URSERY
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CERTIFICATE OF COMPLIANCE WITH WORD COUNT LIMITATIONS

I, Caryll Alpert, counsel for petitioner, certify that the petition for certiorari
in the above-captioned case contains 3,842 words, excluding the parts of the petition
that are exempted by Rule 33.1(d).

May 3, 2021

s/ Caryll Alpert
CARYLL ALPERT (BPR #17021)
Assistant Federal Public Defender
810 Broadway, Suite 200
Nashville, Tennessee 37203-3805
(615) 736-5047

26

